UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




                   Health Services


                Report No. OIG-AMR-56-07-04




                                              September 2007
                                       TABLE OF CONTENTS

BACKGROUND ......................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2

FINDINGS ..............................................................................................3

UTILIZATION .........................................................................................3

        Underutilized Offices ....................................................................3
        Locations with No Service .............................................................4
        Distance from Field Offices ...........................................................4
        Dissemination of Information........................................................5

OBLIGATIONS........................................................................................5

        Incremental Recording ..................................................................5
        Adjustments to the FY 2007 Obligation.........................................6

SPACE RENT .........................................................................................6

        Management's Comments and OIG Response................................7

RECOMMENDATIONS............................................................................7

ATTACHMENT A – Underutilized Offices.................................................8

APPENDIX

        Memorandum from the Director of Human Resources, Comments
        on Draft Audit Report – "Audit of Health Services", dated August
        20, 2007
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. As of February 1, 2007, the NLRB had approximately 1,765 full-
time equivalents that are located at Headquarters, 51 field offices throughout
the country, and 3 satellite offices for administrative law judges.

Section 7901 of title 5 of the U.S. Code states that the head of each agency may
establish, within the limits of its available appropriations, a health service
program to promote and maintain the physical and mental fitness of employees
under its jurisdiction. A health service program may only be established in
localities with a number of employees sufficient to warrant providing the
service. Employees who work in groups of 300 or more, counting employees of
all departments or agencies who are scheduled to be on duty at one time in the
same building or group of buildings in the same locality, will constitute the
minimum number of employees required to warrant the establishment of a
health service program.

Services provided by health units may include first aid, disease screening
examinations, administration of treatments and medicine, and preventative
services such as immunizations. In Fiscal Year (FY) 2006, more than half of
the visits occurred during the first four months of the year, when flu shots are
provided. Flu shots likely comprise a significant portion of visits.

Agencies are charged the reimbursable costs for providing the services, which
are based on an operating budget of all costs required to operate the health
service. The reimbursement cost is prorated to participating agencies by
means of a per capita formula computed by dividing the operating budget of
the health service by the total number of employees sponsored for service. The
size of the Federal population served, the compensation of the employees of the
health unit, and other factors of medical economics prevalent in the area are
factors that affect the local reimbursement cost.

The NLRB entered into an interagency agreement with the Department of
Health and Human Services' Federal Occupancy Health Services (FOH) for the
provision of health services at its Headquarters in Washington, D.C., and 48
locations throughout the nation. The Agency spent $197,330 during FY 2006
and obligated $237,092 for FY 2007 for these services. The significant increase
in costs was mainly due to a 48 percent increase in cost at Headquarters due
to FOH's recalculating the unit cost at a level below the 1,000 employee
threshold for supplying a full-time nurse. A previously lower threshold of 750
employees was met the last time the unit cost was calculated.


                                        1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to review the Agency's health unit program to
determine whether services are procured in a cost-efficient manner and to
evaluate the level of service provided. Our scope included health services
provided during FY 2006 and FY 2007 (through March 31, 2007).

We reviewed laws and regulations related to the provision of health services to
Federal agencies and the obligation of funds by an agency, including the
Economy Act (31 USC § 1535). We reviewed guidance from the Office of
Personnel Management, General Services Administration (GSA), and FOH
relevant to health services and guidance from the Office of Management and
Budget related to the obligation of Agency funds.

We interviewed staff in the Human Resources Branch (HRB) to learn about how
health services are procured, how they are monitored, and how the Agency is
billed. We interviewed staff in the Procurement and Facilities Branch (PFB) to
determine how space rental costs for the health units are managed. We
interviewed staff at FOH to gain an understanding of how the per capita costs
for health units are calculated. We surveyed employees and management in
selected Regional Offices to gather information about the quality of health
services provided. We contacted staff at the agencies utilizing the health unit
at NLRB Headquarters to verify that the agencies were being charged the same
per capita charge as the NLRB.

We obtained the FOH status reports for the NLRB and evaluated them to verify
that the Agency was being properly billed and to determine the trends in
utilization. We calculated the cost per health unit visit for each office and for
the Agency as a whole to determine whether health units were underutilized.
We compared the number of employees for which the Agency was being billed
by FOH with an employee listing from HRB. We calculated the distances from
the field office to the FOH health unit to determine whether the distance
affected utilization. We obtained reports from the Agency's financial system
and reviewed them to determine whether the Agency was properly recording the
obligated funds.

This audit was performed in accordance with generally accepted government
auditing standards during the period of April through September 2007. We
conducted this audit at NLRB Headquarters in Washington, D.C.




                                       2
                                   FINDINGS

We identified more than $40,000 that the Agency could put to better use in the
health services program. Health services paid for by the Agency went unused
by some offices and the utilization rate was so low in other offices that
procuring these services is not cost-effective. We estimate that the Agency
could put $33,885 to better use by eliminating health services at underutilized
facilities. Another $6,354 could be put to better use by deobligating funds from
the FY 2007 health services contract that will not be expensed to provide
health services. Also, funds could be saved by having other agencies that use
the health services at Headquarters share space rent costs.

The Agency incrementally recorded the health services agreement with FOH for
both FY 2006 and FY 2007. In both instances, the amount was not properly
recorded for at least 6 months.


UTILIZATION

The Agency is generally charged a standard rate per employee for health
services provided. This rate was $104.25 for FY 2006 and $113.50 for FY
2007. When the population served by a health unit fell below 1,000 employees,
the rate varied depending on the size of the population.

Underutilized Offices

We considered field offices with either a per visit cost greater than $250 or no
utilization in both FY 2006 and FY 2007 through March 31 to be underutilized.
Attachment A contains the 12 field offices that met this criteria.

For FY 2006, the 12 underutilized health units cost the Agency $33,020. Six of
the 12 field offices had no utilization of the health unit, costing the Agency
$16,092. The distance from the health unit for these 6 offices ranged from
0.14 to 0.75 miles. The other 6 offices had 49 visits and cost the Agency
$16,928, an average of $345 per visit. One of these offices was collocated with
the health unit. The other health units were between 0.45 and 11.21 miles
from the field office.

For the first 6 months of FY 2007, the underutilized health units cost the
Agency $17,437. Seven of the 12 locations did not have any utilization, costing
the Agency $4,103. One of these offices was collocated with the health unit
and the remaining field offices ranged in distance from 0.19 to 2.4 miles from
the health unit. The other 5 field offices cost $13,334 for 34 visits, an average
of $392 per visit. These five health units were located between 0.14 and 11.21
miles from the field office.



                                        3
Staff at FOH noted that if a location was underutilized, FOH could analyze the
utilization pattern and see if they could help the Agency use the service in a
more cost-effective manner. One option was to allow an agency to use the
services on a "fee-for-service" basis. FOH noted that a "fee-for-service" plan
would only be available for offices that were not collocated in the same building
as the health unit. This would allow the Agency to pay for services that are
used, such as flu shots. For 2007, the Agency will expend approximately
$95,203 for health services for 778 employees in locations where the field office
is not collocated with the health unit. If the Agency went to a "fee-for-service"
plan for these field offices, this would allow each employee in these offices to
visit the health unit to obtain a flu shot at the $25 per shot fee and still have
$75,753 remaining. Under a "fee-for service" plan, FOH charges $59 per visit
to the health unit to be evaluated by a nurse. With the remaining $75,753, the
Agency would be able to purchase approximately 1,284 visits.

Locations with No Service

Six NLRB field offices did not have health services available to them. Each of
these offices is in a location where FOH does not have an existing health unit.
For these offices, the distance to the nearest FOH location ranges from 88 to
167 miles. The Jacksonville Resident Office did not have service provided
during FY 2006, but it is currently served by an FOH health unit. FOH
discontinued service in Region 30 in December 2006.

Distance from Field Offices

Regional Office staff surveyed noted that distance was an impediment to using
the health units. The Agency is located within the same building as the FOH
health unit at Headquarters and in 16 field offices. The remaining 32 health
units vary in distance from the field office, with the farthest distance being over
14 miles. The cost per visit increased significantly when the health unit was
not collocated with the field office. This is shown on the following table.

                          Cost per Health Unit Visit
                          By Location of Health Unit

                                    FY 2006
                             Visits       Cost     Cost per Visit
            Collocated       2,348 $108,375.29            $46.16
            Not collocated     454      $89,157.67       $196.38
                         FY 2007 (through March 31)
            Collocated       1,393      $68,145.51        $48.92
            Not collocated     277      $48,011.60       $173.33




                                         4
Dissemination of Information

Staff surveyed in the Regional Offices with higher utilization noted that
information about services provided was regularly communicated. Staff in
Region 31 stated that the nurse serving their office did a good job of outreach
and providing services at the Regional Office. As a result, Region 31 had a low
cost per visit despite being nearly 2 miles away from the health unit. Staff in
Region 2, which also had a high utilization rate, noted that the health unit was
good at communicating the different services through e-mails and through
posting notices.

Staff surveyed in Regional Offices with low utilization noted that getting
information about health services was difficult. Staff in Region 10 and Region
13 stated that communication from the health unit was infrequent and that
they had to call to the health unit to learn when flu shots would be provided.
Staff in the Regional Offices also noted that while they are generally aware that
the FOH health units are available to Agency employees, they do not know
what services are provided to Agency employees.


OBLIGATIONS

Incremental Recording

The Economy Act states that an order placed or agreement made under it
obligates an appropriation of the ordering agency. Section 1501 of title 31 of
the U.S. Code states that an amount shall be recorded as an obligation only
when supported by documentary evidence of a binding agreement with another
person, including an agency, that is in writing and executed before the end of
the period of availability. This requirement contemplates that each agency will
record its obligations properly. Section 3512 of title 31 of the U.S. Code
requires agencies to establish systems of internal accounting and
administrative controls to provide agency management with reasonable
assurance that the agency obligations are in compliance with applicable law
and properly accounted for and recorded.

The Agency signed interagency agreements with FOH under the Economy Act
for FY 2006 health services, totaling $197,533. The obligations, however, were
not properly recorded. On March 1, 2006, 5 months after the service period
began, $65,000 of the obligation was recorded. The remainder of the obligation
was recorded on March 6, 2006, for $33,767 and on April 21, 2006, for
$98,766. This resulted in the obligation for FY 2006 health services not being
properly recorded for more than 6 months.




                                        5
The Agency signed the interagency agreement for FY 2007 health services, with
a ceiling of $237,092. This obligation was also not properly recorded. On
February 20, 2007, $59,273 of the obligation was recorded. The remainder of
the obligation was recorded on March 13, 2007, for $19,628; March 21, 2007,
for $59,723; and June 13, 2007, for $98,468. This resulted in the obligation
for FY 2007 health services not being properly recorded for more than 8
months.

Adjustments to the FY 2007 Obligation

The authority to incur and record new obligations from the appropriation
expires when the fiscal year ends. Expired appropriations are not available for
new obligations.

The Agency could put approximately $6,354 to better use by deobligating funds
that will not be expensed to provide health services. Although the obligation
for FY 2007 was $237,092, we calculated that the Agency will only spend
$230,738. This potential savings is largely due to three factors. First, the rate
used to estimate services for Region 3 was $187.11, but the Agency is only
being charged at a rate of $113.50 per employee. Second, Region 30 is no
longer receiving services because the FOH shut down the servicing health unit
in December 2006. Third, the health unit providing service to Region 32
changed from a unit with a rate of $158.61 to one with a rate of $113.50.
Other small differences also existed.


SPACE RENT

Federal Property Management Regulations provide that an agency is to be
charged rent on a pro rata basis for its share of joint-use space. Joint-use
space is defined as space that is available for common use by personnel of
more than one GSA tenant agency. Health unit space is an example of joint-
use space.

The FOH health unit at the Headquarters building is located within the
Agency's office space. Five other Federal agencies that occupy space on parts
of four floors utilize the Headquarters health unit. GSA, however, charges the
NLRB for the full amount of the health unit space, which is 1,556 rentable
square feet. For FY 2007, the cost of this space is $73,474.

A GSA realty specialist stated that shared space should be charged as joint-use
space whether the space is in Federally-owned or Federally-leased space. The
NLRB is charged by GSA for health unit space as a joint-use cost when it
utilizes FOH health units located in Federal buildings. Accordingly, the other
Federal agencies should be charged at Headquarters.



                                       6
By pursuing options to share the space rental costs with the other participating
agencies, the NLRB could put those funds to better use. The Agency’s savings
would depend on the amount that GSA would charge other agencies based
upon NLRB’s request.

Management's Comments and OIG Response

Management did not agree with the recommendation to pursue options to
share space rent costs for the Headquarters health unit with the other
participating agencies. Management stated that the Agency does not have
delegated authority from GSA to charge rent cost from other participating
agencies.

A GSA realty specialist stated that the preferred method for collecting fees for
shared space is through the occupancy agreements with GSA. GSA stated that
the Agency could pursue whether the space was joint-use space by contacting
GSA. The Agency could also benefit from a comprehensive analysis of all
possible joint-use space at Headquarters, such as the fitness center and the
credit union. If GSA determines that the space is in fact joint-use space, the
rental bills will be adjusted accordingly. GSA added that now would be a good
time to pursue the issue because the Agency's lease will expire during FY 2008.


                             RECOMMENDATIONS

We recommend that the Human Resources Director:

   1. Review the provision of health services in underutilized field offices to
      determine whether continued participation in the FOH program is cost-
      effective or whether services can be obtained in another manner.

   2. Ensure that the field offices are aware of the services provided by the
      FOH Health Units.

   3. Coordinate with PFB so that the obligation for health services is recorded
      when the interagency agreement is signed.

   4. Notify PFB to deobligate the $6,354 of the health services obligations that
      will lapse on September 30, 2007.

   5. Instruct PFB to pursue options to share space rent costs for the
      Headquarters health unit with the other participating agencies.




                                        7
                                                                                     ATTACHMENT A

                                        Underutilized Offices

                            FY 2006                  FY 2007 (through March)
                  Health                           Health                         Distance
                   Unit                 Cost Per    Unit              Cost Per   from Field
Region            Visits      Cost       Visit     Visits    Cost       Visit   Office (Miles)
Las Vegas RO         3      $1,146.75   $382.25      0       $622.55         NA      0.00
Little Rock RO       0        $417.00         NA     0       $226.38         NA      0.19
New York Judges      4      $1,042.50   $260.63      0       $565.95         NA      2.40
Region 10            0      $3,023.25         NA     0     $1,641.24         NA      0.75
Region 13            0      $6,255.00         NA     7     $3,395.66   $485.09       0.18
Region 18            0      $3,894.24         NA     6     $2,097.00   $349.50       0.14
Region 24            0      $2,189.25         NA     1     $1,655.92 $1,655.92       1.27
Region 29           18      $7,290.92   $405.05     10     $2,942.89   $294.29       0.92
Region 32           22      $5,826.92   $264.86     10     $3,242.59   $324.26      11.21
San Antonio RO       1        $683.00   $683.00      0       $367.21         NA      1.02
San Diego RO         0        $312.75         NA     0       $169.78         NA      0.63
Subregion 36         1        $938.25   $938.25      0       $509.35         NA      0.45
Total               49     $33,019.83   $673.87     34    $17,436.52   $512.84




                                                   8
APPENDIX
